TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Criminal Investigation’s Firearms
                         Training and Qualification Policies
                                Need to Be Clarified



                                        September 6, 2012

                              Reference Number: 2012-30-104




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend: 3(d) = Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


CRIMINAL INVESTIGATION’S FIREARMS                     of other Federal law enforcement agencies.
TRAINING AND QUALIFICATION                            However, TIGTA found that some CI special
POLICIES NEED TO BE CLARIFIED                         agents did not meet all firearms training and
                                                      qualification requirements. Field office
                                                      management did not always take consistent and
Highlights                                            appropriate actions when a special agent failed
                                                      to meet the requirements because the guidance
                                                      is vague. In addition, there is no national-level
Final Report issued on
                                                      review of firearms training records to ensure that
September 6, 2012                                     all special agents meet the qualification
                                                      requirements. TIGTA also found that firearm
Highlights of Reference Number: 2012-30-104           discharge incidents were not always properly
to the Internal Revenue Service Chief, Criminal       reported and that remedial training was not
Investigation.                                        always required after accidental discharges due
IMPACT ON TAXPAYERS                                   to special agent negligence. Lastly, procedures
                                                      for securing a firearm after a discharge are not
In performing the IRS’s law enforcement               adequate.
mission, Criminal Investigation (CI) special
agents may be called upon to execute search           WHAT TIGTA RECOMMENDED
warrants and arrest those suspected of violating      TIGTA made several recommendations to the
the U.S. tax laws and other Federal statutes          Chief, CI, to update the Internal Revenue
over which the IRS has jurisdiction. When             Manual to clarify firearm qualification
performing their duties, special agents carry         requirements and nontraining-related discharge
firearms and are authorized to use deadly force       procedures. TIGTA also recommended that CI
to protect themselves and the public. Suspected       either enforce the Internal Revenue Manual
criminals, who face the prospect of                   requirement that special agents who do not
incarceration, may violently resist arrest            meet training requirements surrender their
regardless of how minor the crime may seem.           firearm or modify the Internal Revenue Manual
CI special agents must be fully prepared to           to reflect revised consequences of not meeting
respond with force when necessary. Special            training requirements. In addition, TIGTA
agents not properly trained in the use of firearms    recommended the establishment of a process
could endanger the public, as well as their fellow    for CI Headquarters to monitor and periodically
special agents, and expose the IRS to possible        review special agent firearms training and
litigation over injuries or damages.                  qualification records.
WHY TIGTA DID THE AUDIT                               IRS management agreed with our
This audit is part of TIGTA’s Fiscal Year 2012        recommendations, and corrective actions are
Annual Audit Plan and addresses the major             planned to address the recommendations.
management challenges of Tax Compliance
Initiatives and Achieving Program Efficiencies
and Cost Savings. The overall objective was to
determine whether CI has effective internal
controls to ensure special agents are adhering
to procedures regarding the required training
and qualifications in the use of firearms. This
included evaluating the potential impact on CI’s
program if special agents failed to qualify.
WHAT TIGTA FOUND
CI’s firearms training and qualification
requirements generally met or exceeded those
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 6, 2012


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Criminal Investigation’s Firearms Training and
                             Qualification Policies Need to Be Clarified (Audit # 201130049)

 This report presents the results of our review to determine whether Criminal Investigation has
 effective internal controls to ensure special agents are adhering to procedures regarding the
 required training and qualifications in the use of firearms. This included evaluating the potential
 impact on Criminal Investigation’s program if special agents failed to qualify. This audit is
 included in our Fiscal Year 2012 Annual Audit Plan and addresses the major management
 challenges of Tax Compliance Initiatives and Achieving Program Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and
 Enforcement Operations), at (213) 894-4470 (Ext. 128).
                                       Criminal Investigation’s Firearms Training
                                     and Qualification Policies Need to Be Clarified




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Criminal Investigation’s Firearms Training and
          Qualification Requirements Generally Met or Exceeded
          Those of Other Federal Law Enforcement Agencies .................................... Page 3
          Procedures Need Improvement to Ensure Appropriate
          Actions Are Taken When Special Agents Do Not Meet
          Firearms Qualification Requirements ........................................................... Page 5
                    Recommendation 1:........................................................ Page 8

                    Recommendations 2 and 3: .............................................. Page 9

          When Special Agents Do Not Meet Firearms Training
          Requirements, Criminal Investigation Is Put at Risk .................................... Page 9
                    Recommendation 4:........................................................ Page 13

          Monitoring Procedures Are Needed to Ensure Special
          Agents Meet Firearms Training and Qualification
          Requirements ................................................................................................ Page 14
                    Recommendation 5:........................................................ Page 15

          Procedures Related to Nontraining Firearm Discharges
          Can Be Improved .......................................................................................... Page 15
                    Recommendation 6:........................................................ Page 18

                    Recommendations 7 and 8: .............................................. Page 19


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
                          Criminal Investigation’s Firearms Training
                        and Qualification Policies Need to Be Clarified



Appendix IV – Glossary of Terms ................................................................ Page 24
Appendix V – Management’s Response to the Draft Report ....................... Page 27
          Criminal Investigation’s Firearms Training
        and Qualification Policies Need to Be Clarified




                Abbreviations

CI       Criminal Investigation
FY       Fiscal Year
IRM      Internal Revenue Manual
IRS      Internal Revenue Service
NCITA    National Criminal Investigation Training Academy
OI       Office of Investigations
TIGTA    Treasury Inspector General for Tax Administration
UFC      Use of Force Coordinator
                                   Criminal Investigation’s Firearms Training
                                 and Qualification Policies Need to Be Clarified




                                              Background

Criminal Investigation’s (CI) primary mission is to serve the American public by investigating
potential criminal violations of the Internal Revenue Code1 and related financial crimes in a
manner that fosters confidence in the tax system and compliance with the law. CI’s special
agents are law enforcement officers who investigate
complex financial crimes associated with issues such as
                                                              All special agents are expected to
tax evasion, money laundering, narcotics, organized
                                                                  successfully meet firearms
crime, and public corruption.                                  qualification requirements each
                                                              fiscal year in order to carry or use
In conducting their duties, special agents must meet
                                                                    an IRS-owned weapon.
firearms training and qualification standards regarding
the use of weapons owned by the Internal Revenue
Service (IRS). Specifically, according to the Internal Revenue Manual (IRM),2 special agents
must meet the following firearms training3 and qualification requirements each fiscal year or
must surrender their firearms until these requirements are met.
        Engage in handgun firing training at least once each quarter.
        Shoot at least the minimum of 75 percentage points on the firearms qualifying test using
         the issued handgun during two nonconsecutive quarters; i.e., the first and third quarters or
         the second and fourth quarters (hereafter referred to as biannual standard qualification).
        Participate in biannual firearms building entry exercises.
        Participate in an annual briefing on firearms safety and security policies (requiring the
         completion of the CI Mandatory Briefings Certification form) and CI’s directives and
         procedures regarding the safe handling and storage of firearms.
        Participate in a briefing each quarter regarding the policy of discharging a firearm at a
         moving vehicle.
The IRM4 also requires special agents to qualify at least once a year by firing a qualifying score
of 75 percentage points while wearing warrant service apparel and equipment, i.e., ballistic vest,



1
  See Appendix IV for glossary of terms.
2
  IRM 9.2.1.8 (Mar. 7, 2012).
3
  In addition to the IRM training requirements, CI requires that special agents participate in various firearms training
exercises such as requiring the special agent to fire while moving, engaging more than one target while firing, and
shooting a firearm during various judgment drills.
4
  IRM 9.2.1.8 (Mar. 7, 2012).
                                                                                                                Page 1
                                 Criminal Investigation’s Firearms Training
                               and Qualification Policies Need to Be Clarified



optional tactical holster, and raid jacket, and firing a handgun concealed under normal business
attire. However, the IRM5 does not stipulate that special agents must surrender their handgun for
failing to meet these two requirements.
In addition, special agents are required to participate in semiannual shotgun training. Only those
special agents who fire the shotgun and demonstrate proficiency by scoring a minimum of
75 percentage points within the prior six-month period are allowed to carry a shotgun on
enforcement operations.
CI’s National Criminal Investigation Training Academy (NCITA) is responsible for developing
and monitoring the formalized firearms training and qualification program nationwide. This
responsibility includes developing the training special agents will undergo and the firearm
qualification requirements they are expected to meet. The NCITA is also responsible for
maintaining year-end summary qualification and training records.
According to the IRM,6 the Chief, CI, will ensure that each special agent has met the
requirements to carry firearms. Furthermore, according to the IRM,7 the Director of Field
Operations and each special agent in charge is to ensure that each special agent in his or her
office has met the requirements to carry firearms. Each of CI’s 26 field offices has a Use of
Force Coordinator (UFC) who is responsible for administering his or her field office’s firearms
training and qualification program.8 This oversight includes ensuring that the required firearms
training sessions are scheduled and conducted and that special agents meet qualification
requirements. The UFCs also ensure firearms safety guidelines are followed on the firing range.
This review was performed at CI’s NCITA in Glynco, Georgia, and the CI field offices in
Los Angeles, California; Chicago, Illinois; New York, New York; and Washington, D.C., during
the period August 2011 through April 2012. We also contacted the Treasury Inspector General
for Tax Administration’s (TIGTA) Office of Investigations (OI) in Washington, D.C., and
reviewed its procedures. Additionally, we contacted four Federal law enforcement agencies that
responded to a questionnaire or provided copies of guidance regarding their firearms training and
qualification.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.

5
  IRM 9.2.1.8 (Mar. 7, 2012).
6
  IRM 9.1.4.6 (Mar. 2, 2011).
7
  IRM 9.1.4.6 (Mar. 2, 2011).
8
  Some of the larger or more geographically disbursed field offices have two or more UFCs.
                                                                                             Page 2
                             Criminal Investigation’s Firearms Training
                           and Qualification Policies Need to Be Clarified




                                 Results of Review

In performing the IRS’s law enforcement mission, CI special agents may be called upon to
execute search warrants and arrest fugitives and others suspected of violating the U.S. tax laws
and other Federal statutes over which the IRS has jurisdiction. When performing their duties,
special agents carry firearms and are authorized to use deadly force to protect themselves and the
public. Suspected criminals, who face the prospect of incarceration, may violently resist arrest
regardless of how minor the crime may seem. CI special agents must be fully prepared to
respond with force when necessary. Special agents not properly trained in the use of firearms
could endanger the public, as well as their fellow special agents, and expose the IRS to potential
litigation over injuries or damages.
Our review found that CI’s firearms training and qualification requirements generally met or
exceeded those of other Federal law enforcement agencies. However, we found that some
special agents did not meet all of the firearms training or qualification requirements. Field office
management did not always take consistent and appropriate actions when a special agent failed
to meet the requirements because the guidance is vague. In addition, there is no national-level
review of firearms training records to ensure that all special agents meet the qualification
requirements. We also found that firearm discharge incidents were not always properly reported,
and remedial firearms training was not always required after accidental discharges due to special
agent negligence. Lastly, procedures for securing a firearm after a discharge are not adequate.
CI should improve procedures to ensure consistent and appropriate actions are taken and that
special agents participate in all aspects of the required firearms training. Improved oversight
could help to ensure compliance with the requirements. Finally, procedures related to
nontraining-related firearm discharges could be improved.

Criminal Investigation’s Firearms Training and Qualification
Requirements Generally Met or Exceeded Those of Other Federal
Law Enforcement Agencies
We compared CI’s firearms training and qualification policies and procedures to those in use by
the TIGTA OI and four other Federal law enforcement agencies. CI’s training and qualification
policies and procedures generally met or exceeded those of the other Federal agencies. For
example, CI’s minimum handgun qualifying score is comparable to the minimum score required
by other Federal agencies. In addition, CI’s training that incorporates tactical scenarios such as
firing under low light conditions, using multiple targets, and using horizontal and vertical cover
is also comparable to the training provided by other Federal agencies. Figure 1 compares the


                                                                                             Page 3
                                   Criminal Investigation’s Firearms Training
                                 and Qualification Policies Need to Be Clarified



various training and qualification policies and procedures between CI, the TIGTA OI, and the
four other Federal agencies we contacted.
               Figure 1: Comparison of Firearms Training and Qualification
           Policies and Procedures Among Federal Law Enforcement Agencies

                                                       Federal Agency (X = agency has this policy)
                                                         Agency Agency Agency Agency Agency
      Type of Policy or Procedure                CI        #1     #2     #3     #4     #5

    Number of times a special agent must
                                                  2           4           4            2           4            2
    qualify with a handgun each year.
    Minimum handgun qualifying
                                                  75         70          80           70          80           70
    percentage points.
    Special agent must qualify wearing a
                                                  X          X            X           X
    ballistic vest each year.
    Special agent must relinquish
                                                  X          X                                     X           X
    handgun upon failure to qualify.9
    Special agent must relinquish
                                                             X                                     X
    handgun while on restricted duty.10
    Special agent must participate in
    additional training upon failure to           X          X            X                                    X
    qualify.
    Special agent must qualify with a
                                                             X            X                        X           X
    shotgun.
    Training includes tactical situations
    that a special agent may encounter.
    Examples can include judgment
                                                  X          X            X           X            X           X
    shooting, multiple targets, support
    hand drills, reduced light/flashlight
    techniques, etc.
Source: CI, the TIGTA OI, and four other Federal agencies’ responses to TIGTA questionnaire and analysis of
agencies’ policies and procedures.


9
  Agency #3 indicated that agents who fail to qualify are allowed to retain their firearms but are not allowed to carry
them. Agency #4 indicated that the division head has the discretion of whether or not the firearm(s) will be
relinquished upon failure to qualify.
10
   CI, Agency #2, Agency #3, and Agency #4 indicated that there was some discretion over whether or not the
firearm can be retained while on restricted duty.
                                                                                                               Page 4
                                  Criminal Investigation’s Firearms Training
                                and Qualification Policies Need to Be Clarified



Where the Federal agencies differ most are the requirements to qualify with a shotgun and the
requirement to relinquish the handgun while on restricted duty. CI does not require that every
special agent qualify with a shotgun, but does require special agents to become familiar with its
use. According to CI officials, special agents are generally required to relinquish their firearms
when placed on restricted duty, but there are instances when the special agent may be able to
retain the weapon. According to the Special Agent Medical Handbook, the decision to restrict a
special agent’s firearm while on restricted duty will be based on considerations that take into
account the safety of the special agent, his or her colleagues, and the general public, as well as on
input from the Medical Review Officer and the special agent in charge.

Procedures Need Improvement to Ensure Appropriate Actions Are
Taken When Special Agents Do Not Meet Firearms Qualification
Requirements
We selected a judgmental sample11 of four CI field offices that contained the highest number of
special agents during Fiscal Year (FY) 2011. We reviewed FY 2011 firearms training and
qualification records for 597 special agents and found evidence that most met the firearms
biannual standard qualification by firing at least a qualifying score of 75 as required by the
IRM.12 However, we identified that 27 (4.5 percent) of the 597 special agents did not meet the
biannual standard qualification requirement due to reasons such as being on temporary restricted
duty, not attending one or more of the qualification dates, or on a temporary assignment to
another office.
We also identified 24 special agents who did not meet the requirement to qualify with the
weapon concealed and 48 special agents who did not qualify while wearing warrant service
apparel.13 A total of 13 special agents did not meet both those requirements, while nine of the 13
also did not meet the biannual standard requirement. Figure 2 shows the results of our review of
firearms qualification records at the four field offices.




11
   The judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
12
   IRM 9.2.1.8 (Mar. 7, 2012).
13
   A total of 21 of these special agents were also included in the count of 27 who did not meet the biannual standard
qualification requirement.
                                                                                                              Page 5
                                     Criminal Investigation’s Firearms Training
                                   and Qualification Policies Need to Be Clarified



 Figure 2: Number of Special Agents Who Met Firearms Qualifications in FY 2011

                                                        Los                   Washington,
                                           Chicago     Angeles    New York       D.C.        Total

 Number of Special Agents
                                             125         169         204          99          597
 Tested at Each Field Office

                                     Pistol Qualification Requirements Met:

                                             120         157         198           95         570
 Biannual Standard Qualification
                                           (96.0%)     (92.9%)     (97.1%)      (96.0%)     (95.5%)
                                             112         165         202           94         573
 Concealed Qualification
                                           (89.6%)     (97.6%)     (99.0%)      (94.9%)     (96.0%)
 Warrant Service Apparel                      97         156         198           98         549
 Qualification                             (77.6%)     (92.3%)     (97.1%)      (99.0%)     (92.0%)
Source: TIGTA analysis of CI field office records.

We found that the field offices did not always take consistent and appropriate actions when a
special agent failed to meet firearm qualification requirements because the IRM did not clearly
detail the actions that should be taken. For example, the IRM14 requires special agents to qualify
at least once each year with the firearm while wearing warrant service apparel and once with the
firearm concealed, but it does not indicate the steps to be taken when those requirements are not
met. The ambiguity in the IRM procedures could lead to field office personnel taking different,
and sometimes incorrect, actions when special agents do not meet firearm qualification
requirements. When we asked the UFCs for the four visited field offices what actions they
would take, they provided the following inconsistent responses in regard to special agents who
failed to fire a qualifying score under the following requirements:
          Warrant service apparel and optional tactical holster – Two of the UFCs stated that the
           special agents would be restricted from wearing the warrant service apparel and from
           participating in enforcement actions; a third UFC stated it would only impact the special
           agent’s ability to use the tactical holster, but the special agent would be allowed to wear
           the ballistic vest; and the fourth UFC stated there would be no consequences. An NCITA
           official stated that failure to qualify wearing the warrant service apparel would result in
           the special agent not being allowed to participate in enforcement actions that require such
           equipment.




14
     IRM 9.2.1.8 (Mar. 7, 2012).
                                                                                               Page 6
                              Criminal Investigation’s Firearms Training
                            and Qualification Policies Need to Be Clarified



      Concealed – The responses from the four UFCs varied widely on this requirement. One
       UFC stated that the special agent would be subject to remedial training, a second stated
       there would be no consequences, a third UFC stated the special agent would need to
       surrender his or her firearm, and the fourth stated that the special agent would be
       restricted from participating in any enforcement actions until he or she is qualified. An
       NCITA official stated that field office management has discretion over the resulting
       actions when a special agent fails to qualify with his or her handgun concealed. The
       NCITA official added that, unless there were extenuating circumstances, he would expect
       the special agent to be placed on restricted duty.
      Biannual standard – Two of the four UFCs stated that the special agent would be
       required to surrender the weapon before leaving the firing range. However, the other two
       UFCs stated that the special agent would retain the weapon until the qualifying period
       ended because they believed the special agent remained qualified through the end of that
       period and had the rest of the period to fire a qualifying score. An NCITA official stated
       that the special agent would have until the end of a qualifying period before being
       required to surrender his or her firearm, but should qualify in every other quarter each
       year.
In regard to the biannual standard qualification, one UFC stated that a special agent could retain
his or her weapon without participating in scheduled biannual standard qualification for nearly a
full year because the UFC interpreted the IRM as stipulating that a special agent must qualify
twice in a calendar year. The UFC explained his interpretation of this requirement was that a
special agent could qualify in the first quarter of the fiscal year and, as long as the special agent
qualified again before the end of the first quarter of the following fiscal year, he or she would
remain qualified. This interpretation resulted in some special agents in this field office only
qualifying once under the biannual standard during the fiscal year. Because field office
management believed these special agents were in compliance, they did not require the firearm
to be surrendered in these instances.
In addition, controls did not ensure that special agents on temporary assignment to another field
office met the firearm qualification requirements. We could not determine if two special agents
in our sample met firearm qualification requirements because the field office where they were
permanently assigned did not coordinate with the temporary assignment location to request
documentation or ensure that the special agents participated in the required training. An NCITA
official stated that the special agent’s permanent field office is responsible for ensuring that he or
she met the qualification requirements.
Finally, controls did not ensure that CI personnel properly secured firearms when special agents
failed to meet the biannual standard qualification requirement. CI was only able to provide
evidence that firearms were surrendered in nine of the 27 instances when special agents did not
qualify. The Criminal Investigation Management Information System was only updated to
reflect the custody change in four of those nine instances. Even though the lack of firearm

                                                                                               Page 7
                             Criminal Investigation’s Firearms Training
                           and Qualification Policies Need to Be Clarified



surrender could have been partly due to misinterpreted procedures as previously noted, CI’s
guidance also did not specifically indicate how the field office should document the surrender of
the firearms. For example, two visited field offices updated firearm custody records in the
Criminal Investigation Management Information System inventory records, while another field
office had just instituted procedures to annotate the change in a comment field in the system.
The other field office did not have any procedures in place to reflect custody changes. Without
adequate inventory documentation, CI runs the risk of losing control over these firearms.
Considering the gravity of carrying and using a firearm, there should be no margin for error in
the firearms training and certification program. By not having effective procedures to ensure
special agents are qualified to carry and use a firearm when needed, CI risks endangering other
special agents and the public. In addition, the IRS could be held liable for injuries or damage
resulting from special agents using a firearm who have not met the required qualifications.

Recommendations
The Chief, CI, should:
Recommendation 1: Ensure revisions are made to the IRM to clarify the inconsistencies or
ambiguities regarding the actions to be taken when special agents:
      Do not meet one or more of the qualification requirements, including the biannual
       standard, concealed, or warrant service apparel qualifications. The revision should
       specify the point in time that special agents should surrender their firearms when they do
       not meet qualification requirements. This change should address whether a special
       agent’s firearm should be surrendered before leaving the firing range or when a special
       agent does not participate in the required qualification testing.
      Are on temporary assignment away from their permanent office. The current guidance is
       silent on where the responsibility lies with regard to ensuring all special agents maintain
       their qualifications to carry and use a firearm. The field office where a special agent is
       permanently assigned may be in the best position to ensure its special agents meet
       qualification requirements.
       Management’s Response: IRS management agreed with this recommendation.
       Currently, the IRM addresses the consequences of failure to qualify with the duty holster,
       but leaves the consequences up to the special agent in charge when an agent fails to
       qualify in other situations such as concealed carry, low light familiarization, and using
       tactical equipment. The IRM revision will require weapon removal for all situations
       where an agent fails to qualify with duty gear and concealed carry. Tactical equipment,
       ballistic vest use, low-light, and alternative holster training will be familiarization and/or
       proficiency demonstrations. Regarding the failure to participate in training, the
       consequences will continue to be determined based upon the justification and approval

                                                                                              Page 8
                             Criminal Investigation’s Firearms Training
                           and Qualification Policies Need to Be Clarified



       for missing the designated training and the timeline for when the agent is in
       noncompliance with IRM 9.1.8.2(3). Any unjustified absences will be addressed with the
       appropriate disciplinary actions.
       Regarding agents on temporary assignment away from their permanent office, the
       expectation is that the permanently assigned office has the responsibility to ensure its
       special agents meet qualification requirements. Guidance will be provided to the UFCs
       to ensure this is clear and consistently applied.
Recommendation 2: Ensure revisions are made to the IRM to clarify the requirement to
qualify in nonconsecutive quarters if the intent is that special agents are to qualify, at a
minimum, every six months.
       Management’s Response: IRS management agreed with this recommendation and
       will update the IRM to clarify this requirement. Currently, IRM 9.2.1.8(3)(b) states that
       field offices should schedule firearms qualification during the first and third quarters or
       the second and fourth quarters, which is consistent with the recommendation. However,
       the auditors did note some confusion from at least one of the UFCs. The IRM revision
       will require biannual qualifications in nonconsecutive quarters, not specifically every
       six months. There is no “six month certification.” Agents must meet requirements in
       IRM 9.2.1.8(3).
Recommendation 3: Issue guidance on the steps to be taken when the custody of a firearm
changes because of a failure to meet qualification requirements. This guidance should address
updating applicable inventory records and the importance of maintaining adequate supporting
documentation.
       Management’s Response: IRS management agreed with this recommendation.
       IRM sections 9.10.1.3, 9.10.1.6, 9.10.1.7, and 9.10.1.9 govern Criminal Investigation
       Management Information System equipment assignments, documentation, and temporary
       custody. When a firearm changes custody for any reason, the field office must prepare a
       custody receipt for Government property and make an appropriate Criminal Investigation
       Management Information System entry, regardless of the anticipated length of temporary
       custody. Guidance will be provided to the UFCs and special agents in charge to ensure
       this is clear and consistently followed.

When Special Agents Do Not Meet Firearms Training Requirements,
Criminal Investigation Is Put at Risk
Before the start of each fiscal year, the NCITA usually provides the training requirements to each
field office in the form of a checklist. However, the NCITA did not distribute a checklist for
FY 2011 because the training program was being revised. An NCITA official stated that the


                                                                                            Page 9
                                     Criminal Investigation’s Firearms Training
                                   and Qualification Policies Need to Be Clarified



training requirements for FY 2011 did not differ from the prior year. As a result, we used the
FY 2010 checklist as guidance in our review of the firearms training certifications.
We requested the FY 2011 firearms-related training records for all of the special agents assigned
to each of the four visited field offices. However, we could not always determine if the field
offices conducted the required training or if all special agents participated in the necessary
training because field office supporting documentation varied among the locations. For example,
two locations did not always document that they conducted training or which special agents
attended. This lack of documentation was the main reason we could only verify that
78 (13.1 percent) of the 597 special agents in our judgmental sample met all of their training
requirements during FY 2011.15
Figure 3 provides the various types of required training, per the IRM and other CI guidance, as
well as the results of our review of the FY 2011 training records for the 597 special agents.




15
     We did not review any training related to undercover activities.
                                                                                          Page 10
                                  Criminal Investigation’s Firearms Training
                                and Qualification Policies Need to Be Clarified



          Figure 3: Number of Special Agents in the Four Visited Field Offices
                    Who Met Each Training Requirement for FY 2011

                                                             Los            New         Washington,
                                          Chicago          Angeles          York           D.C.     Total
     Training Requirement Met              (125)            (169)           (204)          (99)     (597)
     Use of Firearms Policy                  102               132           17416            78            486
                                                                  16
     Off-Range Safety                        115               169           199              92            575
     Post Use of Force Procedures            118               159           199              92            568
     Weapons Maintenance                                  Could Not
                                             115                             19916            92            406
                                                          Determine17
     Shotgun Training                         96               120           1518             84            315
     Pistol Malfunctions                 Could Not
                                                               129           179              85            393
                                         Determine17
     Multiple Targets                        108               129           179              88            504
     Judgment Shooting                        63               167           200              95            525
     Use of Vertical and
                                              87               129           179              87            482
     Horizontal Cover
     Moving While Shooting                    91               167           188              92            538
     Support Hand Drills                     9716              16716         17916            85            528
     Reduced Light and Use of
                                             104               159           191              78            532
     Flashlights19
     Building Entry Exercises                113               159           182              92            546
 Source: TIGTA analysis of CI field office training records.




16
   CI could not provide supporting documentation for all instances of the training. However, CI officials stated that
these items are reviewed every time a special agent attends handgun firing training or qualification attempts.
17
   Could Not Determine. The UFC stated that this training was conducted. However, we could not always
determine from our review of field office supporting documentation if the training was conducted or if all special
agents participated.
18
   The UFC stated that special agents only attempted to qualify on the shotgun once during FY 2011 partly because a
firing range was being renovated and was unavailable for live fire.
19
   According to the CI checklist, this training was required to be conducted twice during FY 2011. CI officials
stated that this was a typographical error and that this training was only to be conducted once per year. However,
one of the field offices we visited conducted this training twice during the fiscal year.
                                                                                                           Page 11
                                     Criminal Investigation’s Firearms Training
                                   and Qualification Policies Need to Be Clarified



In addition to the training requirements reviewed in Figure 3, we selected a judgmental sample of
25 of the 597 special agents to determine if they participated in the annual briefing on firearms
safety and security policies during FY 2011. This annual briefing includes reviews of CI’s use
of firearms policy and off-range safety procedures and requires special agents to complete and
sign a CI Mandatory Briefings Certification form. We found that all 25 special agents in our
judgmental sample completed the certification.
There were justifiable reasons why some special agents could not attend firearms training, such
as required court appearances or being on restricted duty. There were also instances where
required firearms training was not conducted due to range availability or weather issues.
However, there were numerous unexplained absences as well as other absences due to the special
agent being on annual leave or having a personal scheduling conflict. In addition, an NCITA
official indicated that the revision of the training program during FY 2011 may have confused
the field offices on the training to be conducted. Managers at all four field offices indicated that
they schedule multiple firearms training sessions each quarter and make efforts to reschedule
training for any special agents who miss the training. In other instances, the UFCs could not
always provide documentation or other evidence that the field office provided all required
training to the special agents.
The IRM20 requires special agents to surrender their weapons when they fail to participate in
required training such as briefings on firearms safety policies. However, there is currently little
consequence for special agents who fail to meet the training requirements listed on the checklist.
The responses of field office management and the UFCs from the four field offices varied as to
the actions taken after a special agent missed such training. The responses included:
          The UFC will try to schedule makeup training, but the special agent needs to at least
           qualify to keep the firearm.
          Management will speak to the special agent personally if there is a pattern of unexcused
           absences.
          Depending on the circumstances, the special agent may have to surrender the firearm if
           management concludes that the reason for missing the training was not sufficient.
          Management will discuss the circumstances with the supervisory special agent and
           emphasize the importance of training attendance. However, missed training would not
           result in the surrender of the firearm.
Four of the other Federal agencies polled indicated that the special agent could face disciplinary
actions, which included rescinding the special agent’s authority to carry a firearm or restricting
him or her from participating in enforcement actions if required training was missed.


20
     IRM 9.2.1.8 (Mar. 7, 2012).
                                                                                             Page 12
                             Criminal Investigation’s Firearms Training
                           and Qualification Policies Need to Be Clarified



For FY 2012, CI made changes to the delivery of the firearms training. Firearms training and the
defensive tactics training were combined to more efficiently use available training time. An
NCITA official stated that the integrated program encompasses an increased use of
scenario-based tactics incorporating special agent judgment and reaction in aspects of the
firearms, defensive tactics, and building entry exercises in each training quarter. In addition, the
NCITA developed a standardized field office reporting spreadsheet that each field office is
required to submit to the NCITA at the end of FY 2012. The spreadsheet will document each
special agent’s firearms training and qualification results for the fiscal year. We believe that this
is a positive step towards ensuring that the field offices maintain proper documentation.
It is widely recognized that most firearms qualification courses do not fully represent real-world
situations that law enforcement agents may encounter. However, we believe that CI’s training
curriculum does a good job in meeting these challenges. Therefore, it is important that special
agents attend firearms training and that this training is properly documented. Court decisions in
the past have held law enforcement entities liable because their law enforcement agents did not
have training that reflected the environment that they would likely encounter, such as training
involving moving targets and low-light conditions. Other court decisions underscored the
importance of properly documenting firearms training. One decision dismissed the claims
against a law enforcement entity that maintained thorough records that showed the law
enforcement personnel had been trained. Another decision upheld a jury’s conclusion that
undocumented police training did not constitute adequate training.

Recommendation
Recommendation 4: The Chief, CI, should either enforce the IRM requirement that special
agents who do not meet training requirements surrender their firearm or modify the IRM to
reflect revised consequences of not meeting training requirements. The policy should include the
types of absences that will be excused and how the excused absences should be documented at
the field office level.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief, CI, will issue a memorandum emphasizing the importance of following the current
       IRM requirements. The current IRM requires agents to surrender their weapon when
       they do not meet the training requirements per IRM 9.2.1.8(3). The IRS agreed that any
       absences from scheduled firearms/use of force training events require approval from the
       agent’s supervisor, which should be documented by the UFC in the use of force training
       records for that particular agent. However, it would not be appropriate to include specific
       types of excused absences in the IRM, when each absence would stand on its own merits
       and be approved by the local management officials.




                                                                                             Page 13
                                Criminal Investigation’s Firearms Training
                              and Qualification Policies Need to Be Clarified



Monitoring Procedures Are Needed to Ensure Special Agents Meet
Firearms Training and Qualification Requirements
As discussed in the previous sections of this report, our review of field office documentation
showed that appropriate actions were not always taken when special agents failed to qualify. We
also found that special agents did not always meet training requirements and that field offices did
not always properly document the training provided. Improved oversight could help ensure that
special agents meet firearms training requirements and that field office management takes
appropriate actions.
According to the IRM,21 all special agent qualification scores and other related firearms training
information are recorded and maintained by the UFCs at each field office. These records are
forwarded at the end of each fiscal year to the NCITA. NCITA personnel stated that once they
receive the information, they do not conduct a review to determine whether special agents met
training and qualification requirements or whether the field office took appropriate actions when
the requirements were not met. NCITA personnel indicated that this would be the field office’s
responsibility. Our review, though, determined that the field offices did not ensure that special
agents met firearms training and qualification requirements or that proper actions were taken.
While the NCITA has developed a standardized spreadsheet to document firearms training and
qualification results, these efforts would be pointless if the results are not periodically reviewed
to ensure that special agents meet the firearms qualification requirements. The Standards for
Internal Control in the Federal Government requires that activities need to be established to
monitor performance measures. Internal controls should be designed to assure that ongoing
monitoring occurs in the course of normal operations. Monitoring is performed continually and
is ingrained in the agency’s operations. It includes regular management and supervisory
activities, comparisons, reconciliations, and other actions employees take in performing their
duties.22
CI could ensure adequate oversight by requiring a periodic review of firearms training and
qualification records by the NCITA or the Director of Field Operations or as part of the Review
and Program Evaluation of each field office. If there is insufficient oversight, special agents in
possession of firearms who are not properly trained and qualified could endanger other special
agents and the public.




21
 IRM 9.2.1.8 (Mar. 7, 2012).
22
 Government Accountability Office (formerly known as the Government Accounting Office),
GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, pp. 14 and 20 (Nov. 1999).
                                                                                                    Page 14
                                   Criminal Investigation’s Firearms Training
                                 and Qualification Policies Need to Be Clarified



Recommendation
Recommendation 5: The Chief, CI, should establish monitoring procedures to review
training and qualification information that is currently maintained at the field office level. The
purpose of this review should be to ensure that special agents are meeting all established firearm
training requirements.
           Management’s Response: IRS management agreed with this recommendation and
           the need to improve monitoring procedures to review training and qualification
           information that is maintained at the field office level. There are procedures currently in
           place under which the field offices are reviewed by the Review and Program Evaluation
           section. The IRS will review ways to make the current Review and Program Evaluation
           review of firearms training in the field offices more comprehensive. In addition, the
           NCITA will begin monitoring the field office use of force reports as they are received
           from the field offices to identify anomalies and any other indications of training-related
           issues and inconsistencies.

Procedures Related to Nontraining Firearm Discharges Can Be
Improved
The use of deadly force is one of the most serious actions a special agent can take in carrying out
CI’s law enforcement mission. Special agents may use force to establish and maintain lawful
control of a situation. In deciding whether to use force, special agents must give paramount
consideration to the preservation of life and prevention of physical injury. Although nontraining
firearm discharges are infrequent, the IRM23 requires that every nontraining discharge be
reported, investigated, and reviewed.
We assessed whether CI was properly reporting discharge incidents and the adequacy of the
actions taken after an incident. We found that the guidance on reporting intentional discharges is
clear. However, the guidance on reporting accidental discharges is contradictory. In addition,
we found that the procedures for actions to be taken after a discharge could be improved. As a
result, the lack of specificity in the procedures has resulted in various interpretations and actions.

Discharge incidents were not always properly reported
When a special agent discharges his or her firearm in any situation other than training, CI
management is required to be notified of the incident. According to the IRM, CI must notify the
TIGTA OI, which is responsible for investigating the discharge. Depending on the
circumstances, intentional discharges may also need to be reported internally to the NCITA, the



23
     IRM 9.2.3.6 (October 14, 2011).
                                                                                               Page 15
                                  Criminal Investigation’s Firearms Training
                                and Qualification Policies Need to Be Clarified



Director of Field Operations, and the Chief, CI. CI must report all accidental discharge incidents
externally to the TIGTA OI and internally to the NCITA and the Director of Field Operations.
According to documentation provided by all 26 CI field offices, the NCITA, and the TIGTA OI,
there were a total of eight firearm discharges classified as intentional use of force incidents24 and
11 discharges classified as accidental25 during FYs 2009 through 2011. We assessed whether the
19 discharge incidents were properly reported to the TIGTA OI and whether the 11 accidental
discharges were also reported internally to the NCITA. Using the applicable version of the IRM
for the different time periods, we found that four accidental discharges were not properly
reported. This included two that were not reported to both to the TIGTA OI and the NCITA, one
that was not reported to the TIGTA OI, and one that was not reported internally to the NCITA.
In three of the four accidental discharges that were not reported, the accidental discharges may
have resulted in property damage or personal injury. The incidents that were not reported are as
follows:
      ****************************3(d)**************************************
         *****************************3(d)******************************
      *****************************3(d)***********************************
         ******************************3(d)**************************************
         ******************************3(d)***********************************
         *********************************3(d)***************************
      *****************************3(d)**************************************
         ********************************3(d)***********************
      ********************************3(d)**********************************
         ******************************3(d)********************
These cases were not reported because CI management did not ensure that proper actions were
taken after an accidental discharge and because the IRM regarding accidental and nontraining
discharges contains conflicting or unclear information. The IRM26 requires that all nontraining
discharges be reported to the TIGTA OI. Three of the four UFCs we spoke with stated that a
nontraining discharge would be any discharge occurring outside of the training environment.
The remaining UFC stated that any intentional or accidental discharge should be reported to both
the field office special agent in charge and to the TIGTA OI. These varying interpretations could
have resulted in unreported accidental discharges at a shooting range.



24
   Intentional discharges include instances where a special agent is defending himself or herself or protecting the
public safety.
25
   Accidental discharges include instances where a special agent did not intend to discharge the firearm but, either
through a voluntary or involuntary action, the firearm did discharge.
26
   IRM 9.2.3.6 (Oct. 14, 2011).
                                                                                                             Page 16
                             Criminal Investigation’s Firearms Training
                           and Qualification Policies Need to Be Clarified



In August 2011, the Chief, CI, issued a memorandum to all special agents emphasizing the
reporting procedures regarding firearm discharges. This memorandum clarified that all
intentional discharges are to be reported to the TIGTA OI and the NCITA, and that only
accidental discharges involving misconduct needed to be reported to the TIGTA OI. However,
one section of the IRM continues to state that all nontraining discharge incidents must be
reported to the TIGTA OI, while another part of the same IRM section indicates that accidental
discharges will be reported to the TIGTA OI only if those are determined to involve misconduct.
When discharge incidents are not properly reported, there is an increased risk that an appropriate
review will not be conducted and disciplinary action will not be taken when warranted. This
could leave the IRS vulnerable if subsequent use of firearms by those special agents results in
injuries, death, or property damage. By not reporting all accidental discharge incidents to the
NCITA, there is an added risk that preventative measures may not be taken to prevent similar
incidents from reoccurring.

Remedial training was not required after accidental discharges due to special
agent negligence
We found that the four visited field offices did not always provide remedial training when an
accidental discharge occurred due to special agent negligence. Specifically, two of the four
UFCs stated that they may require the special agent to participate in some type of remedial
training, one stated that the special agent would be counseled, and one stated that there would be
no additional training required.
Three of the five Federal agencies polled during this review require remedial training, while the
other two indicated that such decisions would be based on the recommendations of the agency’s
officials. CI does not mandate that field office management provide remedial training when
accidental discharges occur due to special agent negligence. However, field office management
may take disciplinary action and require the special agent to attend additional training.
At the beginning of FY 2012, CI conducted a firearms safety briefing in response to an increase
in the number of firearms discharges. This briefing was mandatory for all special agents and
presented several case studies of examples of intentional and accidental discharges. The case
studies included group discussion to identify the firearms safety rules or protocols that were
violated, as well as corrective actions that should be followed to avoid similar situations. An
NCITA official stated that the content of this briefing is now included in the annual firearms
training.
Incorporating the firearms safety briefing into the annual training is a positive step. However,
we believe requiring additional remedial training after an accidental firearms discharge that is
considered negligent would further stress the importance of firearm safety and the consequences
of that negligence. In these situations, CI can take proactive steps to minimize the future risk of
special agents accidentally discharging their weapons and potentially protect the Federal
Government in the case of a subsequent law suit.
                                                                                            Page 17
                                      Criminal Investigation’s Firearms Training
                                    and Qualification Policies Need to Be Clarified



Procedures for securing a firearm after a discharge are not adequate
The IRM27 provides guidance on securing a firearm after a discharge only if the discharge was a
use of force incident resulting in injury or death. The guidance states that special agents are to
relinquish their firearms (through their supervisory special agent or the senior special agent on
site) to the local law enforcement entity. The IRM is silent on the actions to be taken by CI
management in securing a weapon after any other type of discharge. However, the weapon may
need to be surrendered as a result of disciplinary actions taken by CI management. Responses
from the four field office representatives varied widely as to when a firearm would need to be
secured. The field office representatives stated the following different circumstances:
          Only after discharges due to negligence or misconduct.
          After all intentional or accidental discharges.
          Local law enforcement would secure the firearm after an intentional discharge, but
           uncertain as to whether the firearm should be secured after an accidental discharge.
          Dependent on the situation, but the firearm may be secured after all intentional discharges
           or an accidental discharge which involved misconduct.
Three of the five Federal agencies polled during this review indicated the firearms would be
secured by a supervisor after an intentional or accidental discharge. The other two Federal
agencies would secure the weapon after an intentional discharge or after the request of an
investigating law enforcement entity.
The failure to properly secure a firearm after a discharge could adversely impact the integrity of
an investigation and could unnecessarily expose the IRS to legal liability. Clear IRM guidance
relating to the circumstances surrounding when to secure a firearm after any discharge would
ensure that any needed technical and ballistic tests are conducted, which would maintain the
integrity of any potential investigation. In addition, an examination of the firearm after an
accidental discharge would identify any possible mechanical issues.

Recommendations
The Chief, CI, should:
Recommendation 6: Delete the contradictory section from the IRM regarding the reporting
of nontraining discharge incidents to the TIGTA OI. In addition, reiterate to field office
management the definition of a nontraining discharge and clarify the parties to be notified when
nontraining discharges occur.



27
     IRM 9.2.3.5 (Oct. 14, 2011).
                                                                                              Page 18
                            Criminal Investigation’s Firearms Training
                          and Qualification Policies Need to Be Clarified



       Management’s Response: IRS management agreed with this recommendation and
       the conflicting section of the IRM will be deleted. CI recently updated the policy for
       firearm discharges and clarified the reporting requirements. However, IRM 9.2.3.6.2 was
       not updated, causing inconsistencies with the updated policy in IRM 9.2.3.6.3, which
       states that only accidental discharges involving misconduct should be reported to the
       TIGTA. Interim guidance will be provided to the field offices and incorporated into the
       next IRM update.
Recommendation 7: Require remedial training when accidental discharges occur due to
special agent negligence.
       Management’s Response: IRS management agreed with this recommendation.
       They agreed that in most cases remedial training is generally appropriate and should be
       required when accidental discharges occur due to special agent negligence. When an
       accidental discharge occurs, the appropriate Director of Field Operations, in consultation
       with the special agent in charge, will review the specific circumstances surrounding each
       incident to determine whether the accidental discharge was due to special agent
       negligence. The Chief, CI, will issue a memorandum to all senior leaders notifying them
       of this procedure and that remedial training is generally appropriate in cases involving
       special agent negligence.
Recommendation 8: Modify IRM procedures to specifically define the circumstances
surrounding firearm surrender after a discharge to provide proper examination of the firearm and
to ensure appropriate and consistent actions are taken.
       Management’s Response: IRS management agreed with this recommendation.
       They agreed that it is important to have clear guidance regarding firearm surrender after a
       discharge. Regarding intentional discharges, IRM 9.2.3.5.3 provides policy and
       procedures for reporting and surrendering weapons when the use of the weapon results in
       injury, property damage, or death. Regarding all other discharges, the appropriate
       Director of Field Operations, in consultation with the special agent in charge, will review
       the specific circumstances surrounding each incident to determine whether, after a
       discharge, the firearm should be surrendered and examined. The Chief, CI, will issue a
       memorandum to all senior leaders notifying them of this procedure. The IRS is
       concerned that to attempt to codify in the IRM or other guidance the specific
       circumstances requiring firearm surrender after a discharge would lead to a narrow
       interpretation of the IRM or other guidance which would result in a lack of appropriate
       review of other circumstances that are not listed.




                                                                                          Page 19
                                  Criminal Investigation’s Firearms Training
                                and Qualification Policies Need to Be Clarified



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether CI has effective internal controls to ensure
special agents1 adhered to procedures regarding training and qualification in the use of firearms.
This included evaluating the potential impact on CI’s program if special agents failed to qualify.
To accomplish our objective, we:
I.       Determined if CI management oversight and internal controls were effective and
         provided assurance that all special agents were properly trained and qualified to carry and
         use firearms by reviewing related policies and guidelines and interviewing the Director of
         the NCITA.
II.      Determined if CI’s policies and procedures ensured that special agents were adequately
         trained and properly qualified to carry firearms by reviewing records and interviewing
         officials at four judgmentally selected2 field offices.
         A. Judgmentally selected the following four of the 26 field offices for site visits:
            Los Angeles, California; Chicago, Illinois; New York, New York; and
            Washington, D.C. These offices were selected because they had the highest number
            of special agents assigned during FY 2011. We identified 597 special agents who
            were assigned to these four field offices during FY 2011 according to Treasury
            Integrated Management Information System records on the TIGTA Data Center
            Warehouse. These were identified from the population of 2,396 special agents who
            were assigned to CI field offices nationwide during the first and last quarters of
            FY 2011. The sample of 597 special agents was validated to field office training
            records. The TIGTA Data Center Warehouse was also used to validate record counts
            to ensure that all records were received.
         B. Interviewed a CI management official and the UFC at each of the four selected field
            offices and discussed the procedures used to ensure special agents met firearms
            training and qualification requirements.
         C. Determined if the sample of special agents met training and qualification
            requirements by reviewing supporting documentation. For each special agent who
            did not meet the biannual standard requirement, we determined if the special agent
            surrendered the firearm as required.

1
 See Appendix IV for glossary of terms.
2
 A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
We used judgmental sampling because we did not intend to project any of our results.
                                                                                                            Page 20
                             Criminal Investigation’s Firearms Training
                           and Qualification Policies Need to Be Clarified



       D. Determined if a judgmental subsample of 25 special agents selected from the
          597 special agents completed the CI Mandatory Briefings Certification form during
          FY 2011 by requesting the certificate from CI.
III.   Determined if CI properly reported all instances of special agents discharging their
       firearms in nontraining situations.
       A. Obtained and reviewed all CI policies and guidance that were effective during
          FYs 2009 through 2011 for reporting nontraining firearm discharges. We interviewed
          a CI management official and the UFC at each of the four field offices and discussed
          the procedures required when nontraining firearms discharges occur.
       B. Obtained documentation from CI’s Headquarters and field offices for the eight
          intentional use of force and 11 accidental discharge incidents that occurred during
          FYs 2009 through 2011. We determined if the accidental discharge incidents were
          properly reported to the NCITA.
       C. Determined if the 19 discharge incidents identified in Step III.B. were properly
          reported to the TIGTA OI by confirming the existence of discharge reports with
          TIGTA OI management.
IV.    Determined firearms-related policies and practices of five other Federal law enforcement
       agencies by interviewing representatives, reviewing responses to a questionnaire, and
       reviewing applicable guidance for the other Federal agencies.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CI’s policies, procedures, and practices for
ensuring that special agents are properly trained and qualified to carry firearms and for ensuring
that firearm discharges are properly reported and investigated. We evaluated these controls by
interviewing CI staff, analyzing firearms training and qualification procedures and special agent
training and qualification records, and reviewing CI and TIGTA OI documentation related to
firearms discharge incidents.




                                                                                            Page 21
                           Criminal Investigation’s Firearms Training
                         and Qualification Policies Need to Be Clarified



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank W. Jones, Director
Bryce Kisler, Director
Doris J. Hynes, Audit Manager
Jeff K. Jones, Lead Auditor
Todd Anderson, Senior Auditor
Shalin R. B. Basnayake, Auditor
Charles S. Nall, Auditor
Victor A. Taylor, Auditor




                                                                                    Page 22
                           Criminal Investigation’s Firearms Training
                         and Qualification Policies Need to Be Clarified



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Criminal Investigation SE:CI
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CI:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Criminal Investigation SE:CI:S:PS




                                                                                  Page 23
                             Criminal Investigation’s Firearms Training
                           and Qualification Policies Need to Be Clarified



                                                                                 Appendix IV

                                Glossary of Terms

Building Entry Exercises – Building entry and room clearing exercises and scenarios requiring
that special agents wear warrant service apparel and equipment.
Concealed Qualification – Special agents must fire a qualifying score at least once during the
fiscal year wearing a pistol that is completely concealed when holstered. All retention devices
such as thumb snaps must be in use before the draw. The holster must be the standard
strong-side hip concealment holster.
Criminal Investigation Management Information System – A database used by the IRS to
track CI investigative equipment, such as firearms. This system allows management to track
where the equipment is and to whom it is assigned and to generate reports on the use of the
equipment. The system is also used to track the status and progress of investigations and the
time expended by special agents.
Criminal Investigation Mandatory Briefings Certification – As part of the CI Mandatory
Briefings, special agents are to be briefed on the Department of the Treasury Firearms Safety and
Security Policy and CI’s directives and procedures on the safe handling and storage of firearms.
Special agents are required to sign a certification document upon completion of the briefings.
The UFCs are to maintain copies of the certifications.
Data Center Warehouse – A collection of IRS databases containing various types of taxpayer
accounts and IRS and TIGTA employee information that is maintained by the TIGTA for the
purpose of analyzing data for ongoing audits.
Defensive Tactics Training – Designed to promote the effective and efficient use of bodily
impact weapons and to promote techniques for self-protection. This includes training on proper
techniques for handcuffing, searching, and removal of visible weapons.
Director of Field Operations – CI is divided into two geographic areas throughout the United
States. A Director of Field Operations in each area has functional coordination and program
oversight responsibilities over criminal investigation activities for that area.
Field Office – Offices within the two CI geographical areas throughout the country, with
boundaries that range from a portion of a single State to multi-State areas.
Firearm Hammer – The function of the hammer is to strike the firing pin in a firearm, which in
turn detonates the impact-sensitive cartridge primer. The hammer of a firearm was given its
name for both the resemblance and functional similarity to the common tool.


                                                                                           Page 24
                              Criminal Investigation’s Firearms Training
                            and Qualification Policies Need to Be Clarified



Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Internal Revenue Code – Federal tax law begins with the Internal Revenue Code, enacted by
Congress in Title 26 of the United States Code. It is the main body of domestic statutory tax law
of the United States organized topically, including laws covering the income tax, payroll taxes,
gift taxes, estate taxes, and statutory excise taxes. Its implementing agency is the IRS.
Judgment Shooting Training – Live-fire and simulator exercises where the special agent does
not know in advance whether or not to use deadly force. The exercises are intended to evaluate
hits as well as judgment.
Medical Review Officer – IRS physician responsible for determining if a special agent is
medically qualified to perform the full range of duties.
Moving While Shooting Training – Requires that the special agent fire while moving, rather
than stopping to fire. Moving from point to point and stopping to fire does not fulfill this
requirement.
Multiple Targets Training – Any firearms training where a special agent must engage more
than one target during a string of fire.
Nontraining Discharge – According to the NCITA, this would be any intentional or accidental
discharge of a firearm including accidental discharges occurring at training facilities.
Off-Range Safety Training – Discussion of proper firearms procedures when not on the range.
This includes home and office safety, cleaning, discreet wearing, and Treasury Firearms Safety
and Security Policy measures.
Pistol Malfunctions Training – Training where misfires of a firearm are addressed by the
special agent.
Post Use of Force Procedures Training – Review of the procedures to be followed after use of
force is used in an official capacity.
Reduced Light and Use of Flashlight Training – Physiology of low-light shooting and
exercises that require a special agent use a flashlight to identify and illuminate potential threats.
Review and Program Evaluation – Independent review conducted by CI’s Office of Strategy
and field personnel to assess CI operations and managerial effectiveness. These reviews are to
ensure alignment with CI’s Compliance Strategy and IRS internal standards.
Shotgun Training – Special agents must fire the CI shotgun course at least twice annually.
Special Agent – A law enforcement employee who investigates potential criminal violations of
the tax laws and related financial crimes.

                                                                                              Page 25
                              Criminal Investigation’s Firearms Training
                            and Qualification Policies Need to Be Clarified



Special Agent in Charge – A law enforcement employee responsible for directing, monitoring,
and coordinating the criminal investigation activities within a field office’s area of responsibility.
Supervisory Special Agent – A supervisory law enforcement employee who oversees special
agents and the overall criminal investigation.

Treasury Integrated Management Information System – Supports payroll and personnel
processing and reporting requirements for the IRS. The files contain data for IRS employees as
well as TIGTA employees, including job series, grade, assigned location, etc.
Use of Firearms Policy Training – Review of the policy on the use of force and the use of
firearms by special agents. This may also be addressed with practical exercises.
Use of Force Coordinator – Each of CI’s 26 field offices has a UFC who is responsible for
overseeing the office’s firearms training and qualification program. This includes ensuring that
the required firearms training is scheduled and conducted and ensuring that special agents meet
qualification requirements. The UFCs also ensure that firearms safety guidelines are followed
while on the firing range.
Warrant Service Apparel and Equipment Qualification – Special agents must fire a
qualifying score at least once each year wearing tactical equipment, including ballistic vests,
tactical holsters, and raid jackets.
Weapons Maintenance Training – Review of cleaning, lubricating, and proper storage of
firearms.




                                                                                             Page 26
           Criminal Investigation’s Firearms Training
         and Qualification Policies Need to Be Clarified



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 27
  Criminal Investigation’s Firearms Training
and Qualification Policies Need to Be Clarified




                                                  Page 28
  Criminal Investigation’s Firearms Training
and Qualification Policies Need to Be Clarified




                                                  Page 29
  Criminal Investigation’s Firearms Training
and Qualification Policies Need to Be Clarified




                                                  Page 30
  Criminal Investigation’s Firearms Training
and Qualification Policies Need to Be Clarified




                                                  Page 31
  Criminal Investigation’s Firearms Training
and Qualification Policies Need to Be Clarified




                                                  Page 32
  Criminal Investigation’s Firearms Training
and Qualification Policies Need to Be Clarified




                                                  Page 33
  Criminal Investigation’s Firearms Training
and Qualification Policies Need to Be Clarified




                                                  Page 34
